<html>
<title> - OVERSIGHT HEARING ON THE GOVERNMENT PRINTING OFFICE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
          OVERSIGHT HEARING ON THE GOVERNMENT PRINTING OFFICE

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 28, 2004

                               __________

      Printed for the use of the Committee on House Administration







                        U.S. GOVERNMENT PRINTING OFFICE

94-003                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001





                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevilin, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements of Bruce James, Public Printer of the United States, 
  GPO; Marc Nichols, Inspector General, GPO; and Linda Koontz, 
  General Accounting Office......................................     7
    Statement of Bruce James.....................................     7
    Statement of Marc A. Nichols.................................    19
    State of Linda Koontz........................................    27
Statements of Ben Cooper, Printing Industries of America; George 
  Lord, Chairman of the Joint Council of Unions, Government 
  Printing Office; William Boarman, Communications Workers of 
  America; and Janis Johnston, University of Illinois at 
  Champaign-Urbana...............................................    74
    Statement of Ben Cooper......................................    74
    Statement of George Lord.....................................    82
    Statement of William Boarman.................................    88
    Statement of Janis Johnston..................................    94


                       GOVERNMENT PRINTING OFFICE

                              ----------                              


                       WEDNESDAY, APRIL 28, 2004

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Linder, Larson, Millender-
McDonald, and Brady.
    Staff present: Jeff Janas, Professional Staff Member; Maria 
Robinson, Policy Director; Fred Hay, General Counsel; George 
Shevlin, Minority Staff Director; Charles Howell, Minority 
Chief Counsel; and Michael Harrison, Minority Professional 
Staff Member.
    The Chairman. The committee will come to order. And we will 
begin today by welcoming Congressman Brady. Other Members, I am 
sure, will be joining us. I wanted to start by introducing--we 
have a special guest in the audience--Karim Sayed. If you could 
stand up, Karim. Karim is with the Parliament in Egypt. He is 
over here today. So welcome to the United States and to the 
U.S. Capitol.
    The committee is meeting today to hold an oversight hearing 
on the Government Printing Office. I think it is important that 
we bring to light the many changes that have been taking place 
at the GPO.
    The purpose of this committee hearing is to discuss the 
ways in which GPO has been improving its operations; the recent 
General Accounting Office, or GAO as we all know it, report 
examining Federal printing, information dissemination; and the 
progress of the Office of Management and Budget.
    For nearly 150 years, the Government Printing Office has 
provided invaluable service to the American people by 
producing, procuring and disseminating printed and electronic 
publications produced in the legislative and executive branch 
so that every citizen has access to the wealth of information 
that is produced on our behalf.
    I want to welcome our Ranking Member, Congressman Larson of 
Connecticut.
    Historically, as advancements in technology have altered 
the means for meeting its mission, the GPO has embraced these 
new technologies to more efficiently deliver information to the 
American public. The GPO disseminates more than 35 million 
documents per month on line via GPO Access, one of the Federal 
Government's largest and most heavily used Web sites.
    We once again are at a crucial juncture requiring a vast 
transformation of the ways in which GPO does business. When 
electronic distribution of documents over the Internet arrived 
in the early 1990s, few in the printing industry anticipated 
the sweeping publishing revolution that would occur inside of 
10 years. Few at GPO imagined the day when print media would 
become secondary to or even potentially replaced by documents 
created digitally by authors and distributed electronically 
from their source.
    However, this is now a reality. Under the authority of the 
Joint Committee on Printing, (JCP) and the stewardship of the 
Public Printer, Mr. Bruce James, GPO has worked to meet this 
new reality, maximizing cost-effectiveness across all of its 
operations.
    With JCP approval, the GPO last year carried out an initial 
round of a very successful voluntary retirement incentive 
program which has generated an annual savings, I want to repeat 
savings, of 21.7 million to the taxpayers of the country. Due 
to the success of this buyout, the JCP subsequently authorized 
a second round of buyouts for this year aimed at achieving an 
annual cost savings of 16.5 million.
    In addition, the JCP authorized the GPO to close several 
areas of its business that were consistently losing money. In 
2003, the Government Printing Office closed their remaining 13 
retail book stores, one of which was in the State of Ohio where 
I am from, with a cost savings of 1.5 million, and their ink 
shop where GPO was still making its own ink. Through their 
inspector general, they determined it was cheaper to buy ink 
elsewhere, resulting in 1.1 million in savings over the next 5 
years. With JCP approval, Mr. James has been cutting costs at 
the GPO while maintaining a high level of service.
    To realize its vision of a primarily digital future, GPO 
will need to look at what type of facility will fully support 
this type of operation. With JCP approval, GPO has begun the 
information-gathering process with respect to the possibility 
of relocating their headquarters from their oversized facility 
on North Capitol Street to a more modern and efficiently 
manageable facility that will meet the emerging and future 
needs of the agency.
    I look forward to hearing testimony today from Linda 
Koontz, Information Management Issues Director of GAO, who has 
just concluded an extensive and thorough examination of GPO 
operations and is making recommendations on how GPO can 
transform to keep up with general trends in the printing 
industry.
    GAO concluded that GPO's print procurement business has 
seen a loss in revenue in at least 3 of the last 5 years. 
Although the printing work that GPO traditionally did is in 
decline, the good news is that the agencies are generally 
satisfied with GPO's products and services. Most responded that 
they knew more about what GPO has to offer and that they need 
to expand their electronic dissemination programs, which fall 
in line with Mr. James' strategic planning for the 
organization.
    I look forward to hearing testimony from the panels. Before 
I turn over to our Ranking Member, I also want to say something 
that needs to be addressed publicly, and I have said this 
before, when we were over at a Congressional Research Service 
(CRS) event. I came here in 1994 and started serving in 1995. 
We went from shut it down, take it apart, dismember it, to 
different ideas people had, to throwing our hands up in the air 
and not knowing particularly what to do. And I think under your 
stewardship, Mr. James, as the Public Printer--and I know from 
the phone calls that you have made and your staff--you have 
taken the right approach to test ideas, to think outside of the 
box, to see what works or what doesn't work. So I think that 
personally, after 9 years of dealing with this issue, I believe 
that we are on the right track due to your stewardship. So I 
just want to publicly commend you, and all of your staff 
because I know you always speak about the people that work 
there and you always compliment them. With that I will turn to 
our distinguished Ranking Member Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman, and welcome to the 
panelists. We thank you for availing yourselves today for this 
important hearing. This is the first oversight hearing on the 
Government Printing Office since July of 2002.
    Much has happened since July of 2002. A new Public Printer, 
Bruce James, has taken office. He has appointed a new inspector 
general, Marc Nichols, who we had the pleasure of meeting 
yesterday, and who joins us here today. Both gentlemen come to 
the GPO directly from the private sector, Bruce after a 
successful career in the printing industry in California, Marc 
Nichols from a law practice in Colorado.
    Since taking office, as the Chairman has pointed out, Bruce 
has reorganized the GPO's top management and has accrued 
significant savings. He has embarked on a strategic planning 
process and made other changes in direction that are laudable. 
This hearing offers Bruce an opportunity to provide this 
committee with better understanding of his vision for the GPO 
of the future.
    This is a normal part of our process, and, again, I commend 
the Chairman for holding this hearing. And we welcome it, as I 
trust all of the panelists welcome it as much as we do. This 
hearing offers us the opportunity to hear from others 
interested in these matters, including the General Accounting 
Office, organized labor, the printing industry, and the library 
community, panels that we will hear from later.
    Yesterday we had an important memorial service that took 
place at the Library of Congress. They memorialized a former 
Librarian of Congress, Daniel J. Boorstin. And I was struck at 
that service, again, and I am most interested in hearing from 
the library community, because you are the protectors of 
knowledge and of the historic record. The Chairman and I 
happened to be at a CRS-sponsored class last evening that was 
conducted by Judith Schneider at the Smithsonian Institute. And 
I mentioned this last night about Boorstin's remarks, talking 
about libraries and the principal responsibility that all of 
them share both from the GPO's perspective, but most 
importantly from the library's perspective. They are the 
cathedrals or the only place where one still has the 
opportunity to ask the unimagined question and receive 
unwelcome answers.
    That indeed is a tremendous responsibility and one that 
should be cherished. It is one that makes our government unique 
from every other government in this pursuit of knowledge and 
this important keeper of the records.
    And so, again, I laud the Chairman, and I look forward to 
hearing from the printing industry and organized labor, who I 
know have concerns, as we project out into the future and look 
at what Bruce James' vision for that future is going to be. But 
I am heartened by the fact that we have the ability and 
capability to move forward into that future collectively, and 
with the support that is necessitated to continue to keep the 
public records and that knowledge there for access to the 
general public.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman for his comments.
    [The statement of Mr. Larson follows:]
    [GRAPHIC] [TIFF OMITTED] 94003A.001
    
    [GRAPHIC] [TIFF OMITTED] 94003A.002
    
    The Chairman. With that we will begin with the first panel, 
which consists of, Mr. Bruce James, the Public Printer of the 
United States, GPO; Marc Nichols, Inspector General, GPO; and 
Linda Koontz, General Accounting Office. Welcome to all three. 
We will start with the Public Printer, Mr. James.

STATEMENTS OF BRUCE JAMES, PUBLIC PRINTER OF THE UNITED STATES, 
 GPO; MARC NICHOLS, INSPECTOR GENERAL, GPO; AND LINDA KOONTZ, 
                   GENERAL ACCOUNTING OFFICE

                    STATEMENT OF BRUCE JAMES

    Mr. James. Thank you, Mr. Chairman, Members of the 
Committee. I am pleased to be here this morning as you conduct 
this oversight hearing of the GPO and our plans to transform it 
to meet the demands of the 21st century. I will be happy to 
summarize my prepared statement, which has been submitted for 
the record.
    The GPO is one of the Nation's oldest and most venerable 
agencies within which the official version of every great 
American state paper since President Lincoln's time has been 
produced. I can't begin to tell you what an incredible honor it 
is to head this distinguished institution.
    The GPO's employees, in my view, are the most talented and 
dedicated group of professional men and women in the Federal 
Government. They perform demanding tasks under demanding 
schedules, and they are committed to providing Congress, 
Federal agencies, and the public with the best products and 
services possible. I have nothing but the highest regard for 
them, and for their representatives in organized labor.
    The support and guidance that we have been getting from 
Congress has been simply amazing. Your leadership of the Joint 
Committee on Printing, Mr. Chairman, with the able assistance 
of the Joint Committee's staff director Maria Robinson, has 
been invaluable to us.
    Equally invaluable has been the support and guidance we 
have been getting from the appropriations committees and other 
Members, officers and staff with the House and Senate, with 
whom we work closely every day.
    Just as gratifying has been the strong support we have been 
getting from our customers throughout the Federal agencies, 
from the public that uses Government information, and from our 
long-standing partners in the Government information community, 
including the printing equipment industries, the library 
community, and the information and technology industries. Their 
advice and input has been extremely helpful. Without their 
input, Mr. Chairman, we would be lost.
    We need their support now more than ever, because the fact 
is that GPO is at the very epicenter of technological change 
that is upending virtually every aspect of Federal information 
policy. There is no time for us to rest on our laurels from the 
successes achieved long ago. The 19th century is not coming 
back. Printing, once the world's only mass communications 
medium, has been eclipsed by revolutionary changes in 
electronic information technologies, principally the Internet. 
While printing will not disappear in our lifetime, its role in 
our lives and in the lives of those who depend on our products 
and services has been forever changed.
    Technological change has made it necessary to rethink what 
the GPO is and what it does. It is forcing us to think about 
how we can lead the way to an information policy that is 
relevant to and necessary for the demands of the Federal 
Government and the public in the 21st century. Our 
stakeholders, our employees, Congress, our customers, and our 
partners all know that. They are ready for change, and they are 
ready for the GPO to lead the way. Over the past 16 months, 
with the help of the General Accounting Office and others, this 
is the essential task we have been confronting.
    I am strongly encouraged by the outcome of the GAO's study 
of Federal printing and information dissemination, which is 
nearing completion. Their findings, which I have summarized in 
my prepared statement, and which they will discuss this 
morning, underscore the strategic direction we are headed. That 
direction is based on a straightforward and uncomplicated 
conclusion.
    The time has come for the GPO to fully assume its 
responsibilities as the Government's primary resource for 
gathering, cataloging, producing, providing and preserving its 
published information in all forms. This is the GPO's historic 
mission, tracing its beginning to 1813, when the amendment for 
Federal Depository Library Program was first enacted. But to 
fully assume it, the GPO must embrace its historic mission 
using the technology of the 21st century, not the past. This is 
the central concept of the strategic vision that we have begun 
presenting to our stakeholders throughout the Government and 
the private sector.
    The implications of this vision are clear. First, the GPO 
needs to take the lead in creating digital standards for 
official documents of the United States Government. The GPO 
must deploy the technology needed by its agency customers and 
the public to gather and produce digital documents in a 
uniformly structured database in order to authenticate 
documents disseminated over the Internet, and to preserve the 
information for permanent public access.
    The GPO needs to work with its library partners to develop 
a new model for no-fee access through the FDLP, which must 
include a fully digital database of all past, present, and 
future U.S. Government documents, augmented database search and 
retrieval tools, and increased training to enable librarians to 
better serve the 21st century information needs of their 
patrons.
    The GPO needs to develop a customer service model that 
partners with its agency customers at the program level in 
order to provide a range of support and solutions for their 
publishing needs and responsibilities, from creation to 
dissemination, whether digital or printed publications.
    The GPO will need to make significant investments in 
workforce development in order to train its existing employees 
in the skills required for 21st century printing and 
information processing.
    Finally, in order to efficiently and effectively meet the 
continuing in-house printing needs of Congress and its agency 
customers, and to provide for a modern information processing 
environment, the GPO will need to relocate to a facility sized 
and suited for its present and future requirements.
    We are getting sound positive feedback from our 
stakeholders as we present this vision. Our stakeholders are 
excited by the prospects this vision represents, and they want 
to work with us to carry it out. We look forward to that 
collaborative process. After fully consulting with them, we 
will make the necessary adjustments to our plan and move 
forward. We expect to have a plan in place later this year.
    In themeantime, we haven't waited to begin making changes 
at the GPO. We are fixing things that needed fixing and putting in 
place the organization and systems that will help carry out our plan.
    The past 16 months have been a period of outstanding 
accomplishment for the GPO resulting in significant 
improvements and savings. These accomplishments could not have 
been achieved without the support and guidance of the Joint 
Committee on Printing, and we deeply appreciate that, Mr. 
Chairman.
    Among those achievements is the very positive reception we 
have had from our appropriations committees on both the House 
and the Senate side. In fact, we are appearing before Chairman 
Kingston's legislative subcommittee this afternoon at 1:00. We 
are extremely fortunate to have received their full support for 
our funding request for fiscal year 2004, including investment 
funds for the buyout we conducted that eased the way for more 
than 300 staff to retire last year. That action, along with 
another buyout we are currently conducting with our own 
finances, will reduce overall staffing by more than 500 
positions, or 20 percent, and achieve cumulative savings of 
more than $38 million annually. Baring any inforseen 
circumstances, these savings will position us to complete this 
fiscal year at or near the break-even point, ending a period of 
sustained losses in the GPO's finances.
    We are seeking the support of the appropriations committees 
again in fiscal year 2005. We are able this year to propose 
appropriation requirements for our congressional Printing and 
Binding and Salaries and Expenses appropriations that are 
actually less than the amounts we received for this fiscal 
year.
    In addition to those requests, we are seeking investment 
funds for essential technology improvements that will generate 
future savings, as well as an independent appropriation for our 
Inspector General. We understand the limits of available 
funding, however, and depending on the decision of the 
Committees, we are committed to do our part to help meet 
funding targets for the legislative branch this year.
    Mr. Chairman, I understand that you have a full slate of 
witnesses before you, and I don't want to use up any more of 
the Committee's time. Once again, I have the distinct honor to 
serve one of the Federal Government's finest agencies, and I am 
blessed with a superb staff.
    We have a tough job ahead of us to map out GPO's future. We 
have already achieved a great deal with the support of the 
Joint Committee and the appropriations committees. With your 
continued help, and with the guidance and support of our 
stakeholder community, we will achieve fundamental change in 
the GPO that will provide lasting benefits to the American 
people. This concludes my remarks. And I will, of course, be 
happy to answer any questions the committee may have.
    The Chairman. Thank you, Mr. James.
    [The statement of Mr. James follows:]
    [GRAPHIC] [TIFF OMITTED] 94003A.003
    
    [GRAPHIC] [TIFF OMITTED] 94003A.004
    
    [GRAPHIC] [TIFF OMITTED] 94003A.005
    
    [GRAPHIC] [TIFF OMITTED] 94003A.006
    
    [GRAPHIC] [TIFF OMITTED] 94003A.007
    
    [GRAPHIC] [TIFF OMITTED] 94003A.008
    
    [GRAPHIC] [TIFF OMITTED] 94003A.009
    
    [GRAPHIC] [TIFF OMITTED] 94003A.010
    
    The Chairman. Mr. Nichols, welcome.

                  STATEMENT OF MARC A. NICHOLS

    Mr. Nichols. Mr. Chairman and members of the committee, I 
appreciate the opportunity to appear before you today. As you 
know, GPO is on the threshold of transforming into a 21st 
century digital facility under the leadership of Public Printer 
James. The Office of the Inspector General is dedicated to 
facilitating this transformation. The OIG offer an independent 
and objective means of keeping the Public Printer and Congress 
fully informed about problems and deficiencies relating to the 
administration and operations of the GPO. To meet these 
responsibilities, the OIG conducts audits, evaluations, 
investigations and inspections.
    My office is dedicated to partnering with the Public 
Printer to help the GPO improve its efficiency and 
effectiveness as the GPO transforms. As the GPO becomes a more 
technology- and content-driven agency, I expect the OIG 
universe to grow and the responsibilities associated therewith 
to increase significantly. As GPO's reliance on contractor 
support grows, the need for more advanced skill sets within OIG 
will be necessary to ensure that public assets are protected 
and used effectively. OIG human and other resources are 
critical to adequately monitor this increasingly complex and 
technical universe.
    My written comments highlight some pressing issues that the 
Public Printer and I agree face GPO. These include the 
headquarters building, workforce needs and training, 
information technology vulnerabilities, contracting processes, 
and internal controls.
    As GPO undergoes unprecedented changes, the OIG must adapt 
its resources to facilitate the transformation while continuing 
to meet the current and evolving obligations. Through new 
management initiatives and an improved cooperative relationship 
with GPO management, my office has provided substantive 
recommendations and has identified more than $19 million in 
audit, investigation, and inspection findings in the last 
reporting period. I attribute these results to a better focus 
on higher-priority matters affecting GPO programs, operations, 
and the financial bottom line.
    Let me summarize some key programs and initiatives that my 
office has undertaken recently. Through ongoing partnership 
with the Public Printer, the relationship between my office and 
GPO management has improved considerably. I have initiated a 
liaison program wherein senior members of my staff have been 
assigned responsibility for major GPO divisions to enhance the 
relationship between my office and GPO management in order to 
identify cost savings and efficiency opportunities.
    The Office of Audits conducted audit-related activities 
resulting in 14 recommendations for improvements that represent 
between $1 million and $2 million in potential cost savings per 
year, and identifying $100,000 in funds put to better use.
    The Office of Investigations has closed or referred 56 
matters to GPO management, and active cases are questioning 
more than $8 million.
    The Office of Administration and Inspections issued a 
report on GPO's network security, monitored security concerns 
in passport production, and aided GPO in confirming the 
approximately $542,000 in outstanding receivables for Federal 
Register work, and highlighted $9.6 million in additional 
receivables past due more than 90 days, recommending a new 
process that should help GPO recover payments from its customer 
agencies faster.
    I have spent much of the past year identifying unique 
opportunities and characteristics of the potential inspection, 
audit, and investigation jurisdiction over which I have 
responsibility. There are several examples that highlight the 
uniqueness of GPO's OIG.
    The OIG has a nonpersonnel audit universe of nearly 75 
percent of GPO's overall agency dollar responsibility. The OIG 
has jurisdiction over more than 16,000 contractors, almost 
2,300 of which are active at any given time, and who together 
generate more than 100,000 contracts per year.
    Additionally, there are considerable taxpayer dollars at 
stake. These include printing contracts totaling more than $650 
million annually, approximately $75 million in open GPO 
procurements, over $89.5 million in workers' compensation 
liability for the next decade.
    For fiscal year 2005, the OIG will have responsibility for 
monitoring a nearly $800 million GPO financial universe. Let me 
also note that the Public Printer has requested annual funding 
for the OIG by direct appropriation for fiscal year 2005. I 
believe direct appropriation will provide the OIG with the 
necessary independence and flexibility to monitor and evaluate 
GPO's rapidly changing operations.
    I believe the success of GPO depends not only on a clear 
vision and executable plan by the Public Printer, but also on a 
strong partnership between GPO and my office. This partnership 
depends on two-way communication based on mutual respect for 
the role that both the GPO and the OIG play. This communication 
will ensure that current and future needs of Congress will be 
met, as well as ensure the success and vitality of GPO. I am 
confident we are well on our way to achieving our goals.
    I will be happy to answer any questions. Thank you.
    The Chairman. Thank the gentleman for his testimony.
    [The statement of Mr. Nichols follows:]
    [GRAPHIC] [TIFF OMITTED] 94003A.011
    
    [GRAPHIC] [TIFF OMITTED] 94003A.012
    
    [GRAPHIC] [TIFF OMITTED] 94003A.013
    
    [GRAPHIC] [TIFF OMITTED] 94003A.014
    
    [GRAPHIC] [TIFF OMITTED] 94003A.015
    
    [GRAPHIC] [TIFF OMITTED] 94003A.016
    
    The Chairman. And now Linda Koontz of the General 
Accounting Office, GAO.

                   STATEMENT OF LINDA KOONTZ

    Ms. Koontz. Mr. Chairman and members of the committee, I am 
pleased to be here today to participate in this hearing.
    As you know, technological advances during the past decade 
have significantly changed the nature of printing and 
dissemination. This changing environment, in turn, is creating 
challenges for GPO.
    Specifically, the agency has seen declining print volumes, 
printing revenues and document sales. At the same time, more 
and more government documents are being created and downloaded 
electronically, many from its Web site, GPO Access. The 
agency's procured printing business, once self-sustaining, has 
experienced losses in 3 of the last 5 years, showing a net loss 
of about $16 million. The sales program lost about $77 million 
over the same time period. In addition, these changes are 
creating challenges for GPO's long-standing structure for 
centralized printing and dissemination and its interactions 
with customer agencies.
    The Public Printer recognizes these challenges and in 
response has embarked upon an ambitious transformation effort. 
To assist in this effort, we have been working with GPO 
leadership on a wide variety of issues. First, we convened a 
panel of printing and dissemination experts who provided 
suggestions for GPO to consider as it transforms itself. The 
panel suggested that GPO develop a business plan focused on 
information dissemination as its primary goal, rather than 
printing; collect data to demonstrate that the services it 
provides, printing and publishing as well as information 
dissemination to the public, add value; improve and extend 
partnerships with other agencies, particularly those with an 
information dissemination role; and ensure that its internal 
operations, including technology, how it does business with its 
customers, management information systems and training, are 
adequate for efficient and effective management of core 
business functions and for service to its customers.
    GPO officials have responded positively to these results, 
commenting that the panel's suggestions dovetail well with 
their own assessments. In addition, these officials stated that 
they are using the results of the panel as a key part of their 
strategic planning effort. In addition, in October of 2003, we 
reported that under the Public Printer's direction, GPO had 
taken several steps that recognize the important role that 
strategic human capital management plays in this 
transformation, including establishing and filling the position 
of Chief Human Capital Officer.
    At that time we made numerous recommendations to GPO on the 
further actions it could take to strengthen its human capital 
management. In response, GPO has begun to address these 
recommendations. For example, it has reorganized its human 
resources offices into teams responsible for each of its 
divisions, serving as a one-stop shop for all of its divisions' 
human resource needs. It also plans to conduct a skills 
assessment of its workforce and is initiating a pay for 
performance pilot.
    Finally, GPO is taking steps to put greater emphasis on 
customer needs. Agency responses to surveys we conducted 
indicated that overall, agencies were generally satisfied with 
GPO's products and services and with the performance of the 
individual organizations that provide them; however, they 
furnished responses that did identify a number of suggestions 
for action to GPO. Again, GPO has responded positively through 
several initiatives, including taking a new direction regarding 
sales by establishing national account managers who work 
directly with customers to identify their needs and offer 
solutions.
    In summary, GPO leadership recognizes the challenges that 
the agency faces and has made the commitment to transform to 
function effectively within this changed environment. As part 
of this effort, the Public Printer has taken important steps by 
establishing a strategic planning process which in part will 
consider changes to the agency's future mission and focus.
    Further, in realizing the importance of effective human 
capital management, he is establishing the foundation needed to 
successfully transform GPO. In addition, by placing new 
emphasis on its customers, the agency is focusing on a key 
characteristic of high-performing organizations. Fulfilling 
this commitment, however, will require sustained attention from 
GPO leadership as well as clear-sighted analysis of the 
challenges and the actions required in response. In the coming 
months, we look forward to continuing to work with these 
leaders cooperatively as they make further progress on their 
transformation.
    That concludes my statement. I would be happy to answer any 
questions you may have.
    The Chairman. Well, thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 94003A.017
    
    [GRAPHIC] [TIFF OMITTED] 94003A.018
    
    [GRAPHIC] [TIFF OMITTED] 94003A.019
    
    [GRAPHIC] [TIFF OMITTED] 94003A.020
    
    [GRAPHIC] [TIFF OMITTED] 94003A.021
    
    [GRAPHIC] [TIFF OMITTED] 94003A.022
    
    [GRAPHIC] [TIFF OMITTED] 94003A.023
    
    [GRAPHIC] [TIFF OMITTED] 94003A.024
    
    [GRAPHIC] [TIFF OMITTED] 94003A.025
    
    [GRAPHIC] [TIFF OMITTED] 94003A.026
    
    [GRAPHIC] [TIFF OMITTED] 94003A.027
    
    [GRAPHIC] [TIFF OMITTED] 94003A.028
    
    [GRAPHIC] [TIFF OMITTED] 94003A.029
    
    [GRAPHIC] [TIFF OMITTED] 94003A.030
    
    [GRAPHIC] [TIFF OMITTED] 94003A.031
    
    [GRAPHIC] [TIFF OMITTED] 94003A.032
    
    [GRAPHIC] [TIFF OMITTED] 94003A.033
    
    [GRAPHIC] [TIFF OMITTED] 94003A.034
    
    [GRAPHIC] [TIFF OMITTED] 94003A.035
    
    [GRAPHIC] [TIFF OMITTED] 94003A.036
    
    [GRAPHIC] [TIFF OMITTED] 94003A.037
    
    [GRAPHIC] [TIFF OMITTED] 94003A.038
    
    [GRAPHIC] [TIFF OMITTED] 94003A.039
    
    [GRAPHIC] [TIFF OMITTED] 94003A.040
    
    [GRAPHIC] [TIFF OMITTED] 94003A.041
    
    [GRAPHIC] [TIFF OMITTED] 94003A.042
    
    [GRAPHIC] [TIFF OMITTED] 94003A.043
    
    [GRAPHIC] [TIFF OMITTED] 94003A.044
    
    The Chairman. I want to thank all three witnesses on the 
panel.
    The first question I have would be of Mr. James. Is there 
anything else that Congress needs to do to help GPO with the 
transition in the sense of trying to be, as everybody says, 
more businesslike? Are there things that the Congress needs to 
act upon?
    Mr. James. Yes, sir. We will be coming to Congress with 
some proposals for changing Title 44 of the U.S. Code in regard 
to the policies that govern GPO. And we are in the process 
right now of consulting with our stakeholders, as you know, as 
we develop the strategic plan, and at the appropriate time, Mr. 
Chairman, we will be coming to you and asking you for help. At 
this point, I can tell you that we have received help from 
every Member of Congress whom we have asked. I just cannot be 
more pleased with the support of Congress.
    The Chairman. Thank you.
    Have you had any type of ways that you have reached out to, 
what I would call customers of GPO, to ask them how things need 
to change or information and feedback? You have undertaken, I 
assume, efforts like that?
    Mr. James. That is a very good question. And you bet we 
have, beginning with me. I spend a considerable portion of my 
time out visiting with our customers and talking to them about 
what they are doing, how their missions are changing, what 
kinds of additional support that we can provide to them.
    I have talked to more than 100 of our customers. In 
addition to that, our management team is out regularly meeting 
with customers and have talked with hundreds more of our 
customers. And as Ms. Koontz indicated, we also have 
established a team of nine what we call National Account 
Managers who I am not even sure that they have desks. Their 
office is their car. And their job is to be out in front of our 
customers every day talking to them about what we can do to 
support their programs, and their mission.
    The Chairman. Thank you. I have a question for Mr. Nichols. 
As the role of GPO changes, do you see the role of the 
inspector general also adapting, changing, or having to look in 
different directions due to technology?
    Mr. Nichols. Yes, I do. And I think the office has to 
change. We have to be just as adaptable as we are asking GPO, 
and I think the Public Printer has identified that GPO needs to 
transform itself. As we become more of a technology- and 
content-driven agency, as I said in my remarks, I believe that 
we have to make sure that we have the skill sets to understand 
the change that is ongoing for GPO.
    I believe that we need to make sure that we are working 
with the agency to have a better understanding of exactly where 
they are going, and I think the Public Printer has indicated to 
me in personal conversations, as well as publicly, that he does 
support the transformation not just within GPO, but the 
transformation that I am trying to bring to the inspector 
general's office as well.
    The Chairman. Thank you.
    Final question I have is for Ms. Koontz. The Web site, GPO 
Access, what kind of feedback have you had on surveys involving 
that. Or, have you had any feedback on the Web site?
    Ms. Koontz. We did surveys of the executive branch 
agencies, but I don't believe we asked specifically about GPO 
Access. I think in our upcoming surveys that we have agreed to 
do with GPO on the legislative branch customers, that is an 
issue that we will be asking about.
    The Chairman. We look forward to getting some feedback on 
that.
    Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman.
    Let me start first by asking Mr. James, in your testimony 
you cite the need to establish digital standards. Could you 
elaborate on what the criteria would be, what process you have 
set in place?
    Mr. James. I would be pleased to, Mr. Larson. To build a 
database that will allow us to authenticate documents, identify 
versions, and preserve digital databases in perpetuity, which I 
believe I am required to do, we need to have a uniform 
structure to the databases. And there are basically three 
components that need to be taken into consideration. The first 
is the character set, the alphanumerics. I think the Government 
is pretty well agreed on what that character set is.
    The second issue is the coding of the information to impart 
values to it, such as a headline or a paragraph. We have a 
number of schemes in play throughout Government. There is no 
agreed-upon scheme.
    And the third aspect is what has come to be called 
metadata. That is the information that identifies a document, 
who the author was, what the purpose of creating the document 
was, what version it is, and so forth.
    And while there are various views of what it is going to 
take to be able to save this information in perpetuity--some 
people think that computers will be big enough and powerful 
enough in the future that it won't make any difference how we 
structure databases--I think we would be foolish to rely on 
that. I think we as a Government would be well served by having 
a uniform set of standards for all three of those areas I 
outlined.
    As GPO in the past published a Style Manual which covered 
how Government documents are created for printing, I think GPO 
needs to introduce a 21st century Style Manual, which would 
indicate the preferred way of coding data and of adding 
metadata to databases. Not only will we suggest what those 
standards should be in consultation with other people in 
Government who are interested in this, but we also will develop 
a group of our own people who can train agencies in how to 
apply these standards, and then we will have filters at our end 
that check all of this information coming in to make sure that 
it conforms to these uniform standards.
    Mr. Larson. I am also interested in, and applaud you again, 
as was noted by Linda as well, for the efforts that you have 
made in the human capital area. More than half of your current 
workforce is retirement-eligible, and only 5 percent are under 
age 30. Though the world clearly is moving away from ink on 
paper and towards electronic dissemination, we aren't there 
yet.
    Are you satisfied with the direction that we are moving in 
in this transformation? And what do you see your workforce 
needs as we move forward?
    Mr. James. I think you have identified perhaps the biggest 
challenge that we have as an agency. That is, how do we take 
people that have devoted their lives to producing printing and 
supporting the producing of printing at the GPO,and how do we 
retrain them with the skills that are necessary to operate in a digital 
world?
    There are basically three steps that we are doing. The 
first was to take a look and assess what our training policies 
are. When I arrived on the scene, what we had was an 
interesting policy that said that GPO would pay to train people 
in the job they hold today, but we wouldn't train for future 
jobs. Well, we have changed that training policy. And the GPO 
training policy now is to train for mission.
    The second thing we had to do was put in place an 
organization that had the ability to lead in a workforce 
development program, and I have done that. We have hired a 
Chief Human Capital Officer, who is one of the most experienced 
people in the country. He has been through transformations in 
other industries and knows what is required.
    The third thing we need to do--once we create a strategic 
plan and we are able to define exactly the direction we are 
going--is define what skills will be required of our workforce, 
and then implement a program to retrain certainly the part of 
our workforce that will need those skills in the future.
    Mr. Larson. This question is for both you, Mr. James, and 
Ms. Koontz. With respect to the amount of money that the GAO 
cited that is being lost or not being taken in, and in 
surveying a number of agencies, many of whom would say that 
without the Printer doing their specific tasks, their costs 
would rise, and inasmuch as there is still a considerable 
number of agencies that outsource their work currently, does it 
make economic sense for us to look at having OMB having more 
agencies who are currently outside of the norm doing their work 
through the Printer's office?
    Mr. James. Would you like me to answer that first? Title 44 
of the U.S. Code basically says that all printing shall come to 
the Public Printer, unless it is specifically exempted from 
that requirement by Congress.
    Over the years Congress has given permission--the JCP has 
given permission--for some agencies to establish their own in-
house printing capabilities. Other agencies chose to go forward 
and build what they call duplicating capabilities that they 
didn't believe necessarily fell within the requirements of 
Title 44.
    What we have seen is there is a proliferation of printing 
and duplicating plants in agencies that need to be addressed 
and looked at. We have had a discussion with OMB about this. 
OMB has indicated a great interest in working with us to help 
identify all of the plants that exist in Government, and to 
develop a program to assess whether or not there is any reason 
to continue these plants.
    As far as the printing that is bought and GPO goes, we have 
looked at this, and we have determined that there is a 
significant amount of printing that is being procured directly 
by agencies in violation of Title 44 of the U.S. Code. We, of 
course, have no real mechanism to enforce the buying of 
printing through GPO, but what we find is that it isn't 
necessarily an enforcement problem, it is an education problem. 
And what I found as I have gotten into this, and I have had 
discussions with Cabinet-level Secretaries, and I have had 
discussions with directors of agencies, is that frequently the 
agency or the personnel involved do not understand the 
responsibility under Title 44 to send the work to us, and 
furthermore don't understand what the capabilities are that GPO 
has to perform in their behalf.
    So I think that we have to take responsibility for at least 
part of the problem, and we need to vastly improve our 
education program of agencies. The way we are going about doing 
this is we have reorganized GPO's customer service 
organization. Instead of having just a group of 500 people that 
sort of at random deal with customers, we are reorganizing our 
customer service group by department.
    For instance, the Department of Agriculture will have a 
group of four or five or six GPO specialists that are devoted 
24 hours a day, 7 days a week to providing service to them. As 
I tell the folks in these groups, I want them reading more 
Department of Agriculture publications than anybody at the 
Department of Agriculture. And any time the Department of 
Agriculture announces a new program, I want them in there 
working with the program manager to define what the information 
requirements are going to be at the very beginning.
    So I think that you will see over the next 2 or 3 years, 
and certainly over the next 5 years, that this lack of agencies 
understanding their responsibility will go away. It is our 
responsibility to----
    Mr. Larson. The Chairman had asked earlier, is there 
something that Congress could do? I ask again from GAO's 
perspective and from the inspector general's perspective, 
inasmuch as this is an educational issue, or is it an 
enforcement issue? And I would be interested in your response.
    Ms. Koontz. As to the issue of enforcement, our work 
indicated also that there were agencies who, when we surveyed 
them, stated that they did do in-house printing. Now, some of 
this is the printing that has been approved by the Congress. 
And last summer we did a briefing on this and found that there 
were as many as 240 approved printing plants.
    And I agree. This is something to take a look at, as you 
have an overall decline in printing, that there could be all 
kinds of adverse consequences associated with an overcapacity 
of government printing chasing less and less demand for that 
resource.
    But I think in terms of the other printing that is going 
on, some of it is an inevitable consequence of the changes in 
technology. Agencies do not have to have large-scale printing 
equipment in order to produce small runs of printed documents, 
and they are doing that very thing.
    What we suggested to the Public Printer, and I think what 
he articulated to you, is that this was a place where, as our 
panel said, GPO can demonstrate its value by having closer 
relationships with customers, and if indeed they can provide 
this more efficiently and effectively, I think the business 
should come their way.
    It is also an educational issue, I believe. And I think 
that, in truth, enforcement of Title 44, trying to find all of 
this, would be very, very difficult under any circumstance, and 
that a more proactive approach on the part of GPO would be much 
more effective in the long term.
    Mr. Larson. Does the inspector general agree?
    Mr. Nichols. I would agree with the Public Printer thatit 
is largely an educational issue in terms of trying to work with 
agencies to make sure that they understand what GPO can do and how we 
can go about doing it.
    I would also, however, say that I think it is--we shouldn't 
undervalue that it is also, in part, an enforcement issue. As 
the Public Printer also said, since we don't really have a 
mechanism to enforce Title 44, it becomes more apparent that if 
somebody doesn't want to work with GPO for----
    Mr. Larson. If you had the necessary capability to enforce 
it through the approach that you have taken, the proactive 
capability of a very capable printer, the recommendations of 
the panel from the GAO, and as in your capacity--as my 
grandfather Norman would say, trust everyone, but cut the cards 
capacity, come in and have not only the logic and the 
information that comes from a panel, and the proactive 
marketing on behalf of the Public Printer, but it would seem 
from your perspective that this also would be able to close 
that gap in revenue, and especially since it seems that there 
are so many agencies that aren't rightfully going through the 
Public Printer, and that would only serve to enhance your 
capability and be more economically efficient.
    Mr. Nichols. I would certainly agree with that. One of the 
ways in which we have gone about trying to help the Public 
Printer and GPO in terms of its enforcement is dealing with 
Inspectors General's offices at the various customer agencies, 
when there is an example of a Title 44 issue that comes up 
where there is an agency that is not coming to GPO, is to 
actually work with the IG's office and say there are things 
that your agency is doing that may be not cost-effective, and 
work in tandem or in a joint operation to try and figure out 
how we can help make sure that the agency does that.
    Mr. Larson. I have one quick question for the Inspector 
General. Should we do something to disabuse people of what your 
role is, and that, in fact, it is there to help and to look at 
these things and not--one thing the Chairman and I agree on is 
that the mentality of ``got you'' in government is just bad 
policy, and that what we need to do is focus on the 
constructive means of making sure that we are working in a 
collaborative venue, with the end result being a better 
product, more efficiently delivered at the best cost to the 
taxpayer. Do you agree?
    Mr. Nichols. I couldn't agree with you more. I think the 
Public Printer and I have, from the outset, tried to ensure 
that we led from the top down in making sure that both of our 
respective agencies or entities had that same understanding. 
That cooperation has been ongoing. I expect it to continue.
    Mr. James. May I make one additional comment? The issue 
over the bypass of the Government Printing Office on the 
procurement of printing really falls to the heart, I think, of 
what the responsibilities of the Public Printer are. That is to 
collect in one place and to catalog and identify publications 
of the United States Government, and make them widely and 
broadly available to the public.
    We do that through the Federal Depository Library Program. 
And what we find is that when people procure documents directly 
themselves, if they know they are in violation of the law, 
there is not a single chance they are going to tell us about 
those publications so we can get them in the system.
    Mr. Larson. Good point.
    Mr. James. If they are doing this inadvertently, again, 
they don't know their responsibilities under the law. So I 
think the issue here is we are losing part of the history of 
the American Government, and that is the real key issue here.
    As I have discussed this with the management of OMB, they 
absolutely understand this. Mitch Daniels was there when I 
arrived and if you recall, we had a controversy when I walked 
in the door, and we were able to resolve the controversy 
because Mr. Daniels understood the nature of this. And I can 
absolutely tell you that Mr. Bolten and Mr. Johnson understand 
this and are working closely with us to help us close the gap 
and get these publications to the GPO. And I think that 
probably, at the end of the day, is going to be the best 
enforcement mechanism we have is to have a close working 
relationship with OMB.
    Mr. Larson. Our staff would also like to join with you. I 
know, as the Chairman indicated, his willingness to work to see 
what we can do. We share a love of history and the importance 
of its preservation. I think you are right-on in your comments 
and look forward to working with the triumvirate assembled here 
today, because I think that you have three unique and 
appropriate approaches to this problem-solving that needs to go 
on. And we would like very much to be a part of that to assist 
you in this. I think it in the long run will help everyone.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Linder had to leave. He has another 
meeting that he has to attend. But I think he will have a 
question to submit, I believe, in writing for you.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. Let's see 
here.
    Mr. James, it is mentioned that GAO has indicated that GPO 
has initiated positive changes in the human resource management 
of GPO. And if that is the case, how does this positivity, the 
positive changes, result in 2,700 full-time employees not being 
affected; or if they are going to be affected with this 
positive change, how are they going to be affected in the short 
and long run, especially given the fact that you are reducing 
printing, and you have--there is a loss--you have a loss of--
you have lost money in publication sales? Given all of these 
variables in your agency, how--what steps are you going to take 
in collecting the loss of revenue, and how does this affect the 
changes in your human resources?
    Mr. James. You have just asked the question right at the 
heart of everything. You are correct that we are losing 
revenues in many of our traditional areas, but you have to 
understand that we don't create the revenue. We simply respond 
to the needs of our agency customers. And what we find is that 
they are moving away from
printing as the answer to their communication needs, and moving 
more to digital documents.
    Now, we are providing some services to these agencies in 
regard to digital documents and to constructing databases and 
Web sites, but I think we have a long way to go. There is much 
more that we can do, as the GPO has pointed out, and I think 
those are the jobs of the future. So as the information needs 
of our customers change, I think it is incumbent upon the 
management of GPO to prepare our labor force to be able to do 
things in the style that is preferred by our customers. That is 
what we are intending to do.
    Ms. Millender-McDonald. Well, that is indeed correct.
    Now, this Chief Human Capital Officer, of course, does that 
have anything to do with the training of these employees for 
the new types of jobs that you are referring to?
    Mr. James. The GPO has been around a long time. We have 
been around nearly 150 years. And as I go back and look at 
particularly the 20th century, what I see is that there have 
been several technological changes that occurred in the 
printing industry in the 20th century, and GPO has been at the 
forefront of each of those technological changes. Through 
history, we have changed completely the responsibilities of 
many of our employees, and time after time our employees have 
been able to rise to the challenge and to embrace new 
technology and move forward.
    My guess is that our employees once again will rise to the 
technological challenge, and will embrace the new technology, 
and will prepare themselves in conjunction with the help that 
we give to be able to continue to serve you and continue to 
serve our agency customers.
    Ms. Millender-McDonald. So in this whole newfound ambiance 
that we are in, and your trying to change, given the high 
technology, given the reduction in publications and all of the 
other variables, are we suggesting that these 2,700 full-time 
employees will either go by attrition, or they will step up to 
the plate and be ready for the newfound technological changes 
that you are going to make?
    Mr. James. I think the issue that I hear most of from our 
employees is that they are ready for change. They want to 
embrace this change. They want to be retrained. They are ready 
to move ahead, and want to know how come we are moving so 
slowly. I think I hear that more than anything else.
    However, I cannot begin to retrain employees until after we 
have defined what it is we are going to be doing.
    At the same time, there are some basic things we are 
beginning to prepare for. We are doing a study of the skills, 
called a ``skills assessment,'' of our existing employees so we 
know where each employee is. Once we determine that and once we 
determine where we are going, then we will see how successful 
we are.
    I think we will lose some employees, but there will be a 
place for those who want to move ahead with us.
    Ms. Millender-McDonald. Will you lose them to attrition or 
just that they are unable to adapt to the new technological 
changes?
    Mr. James. I think there are going to continue to be lots 
of jobs in the GPO that looked like they did yesterday. Not 
every job will change. I think we will have 3-, 4-, 500 of our 
jobs that dramatically change. My guess is that our workforce 
will rise to that challenge. I have every reason to believe 
that they will.
    Ms. Millender-McDonald. And they will continue to be as 
diverse as this country is?
    Mr. James. I absolutely believe that.
    Ms. Millender-McDonald. One other question or comment.
    I see that FDLP, the Federal Depository Library Program, 
which many libraries in my district are in, has seen a decline 
from 1,400 to 1,300. Can you tell me why this change has 
occurred and, hopefully, if you are going to reduce others, 
they will not be in my district?
    Mr. James. It is interesting. The FDLP program is changing 
and it is being driven by technology. You know, 20 years ago, 
or 25 years ago, the FDLP was the source of information for 
people that couldn't afford to buy it themselves. If you 
couldn't afford to buy a printed publication from the GPO, you 
could go to your depository and find the publication there and 
use it--not only find the publication, but find people that 
were skilled in the use of Government information, librarians 
who had studied and been trained in this.
    What we see today is that the change is so dramatic that as 
much as two-thirds of all new Government publications coming 
into the FDLP are now on the Internet. So you don't need any 
longer to visit a depository library to have access to the 
information. I think what that is doing is causing some of the 
depositorylibraries to reconsider whether they are invested in 
the program to question whether they want to continue or not, whether 
or not it is really necessary to their community or their constituency 
to continue. And we are addressing this on a regular basis.
    Two weeks ago I was in St. Louis meeting with 500 
depository librarians to discuss some of these issues and begin 
to look at what the future will be. I believe we need to 
digitize the entire bank of Government documents going back to 
the Federalist Papers so everyone has access to those documents 
at their home or office or wherever they are.
    And, of course, not everyone will have a computer, and so--
--
    Ms. Millender-McDonald. That is just what I was going to 
refer to.
    Mr. James. Not everyone will have a computer. So this is 
where libraries will come into play.
    Ms. Millender-McDonald. And there is such a connection to 
the Federal Government so far away. And so, to me, it gives 
pause to ensure that as you are downgrading or eliminating some 
of those, that you don't--that you remember that there are some 
who still do not and have not become part of the digital age. 
There is a lot of digital divide, and so we need to recognize 
that.
    I did want to speak, but if Ms. Koontz--I have to go to 
another meeting that I am late for, but you are saying that you 
have recommended that GPO hires the national something 
managers--I will see it when I put my glasses on--but I need to 
know, just how do they play into the whole scheme of things in 
the restructuring of GPO, hiring of national account managers?
    Ms. Koontz. The national account managers I mentioned in my 
statement, this is really just one small part of what GPO is 
doing to put a new emphasis on their agency customers; and they 
have a number of initiatives that are ongoing that we have been 
working with them on. This is one way they have chosen to 
expand their capability in this area.
    Ms. Millender-McDonald. Seems like a positive step. Thank 
you, Mr. Chairman.
    [The statement of Ms. Millender-McDonald follows:]
    [GRAPHIC] [TIFF OMITTED] 94003A.045
    
    [GRAPHIC] [TIFF OMITTED] 94003A.046
    
    [GRAPHIC] [TIFF OMITTED] 94003A.047
    
    [GRAPHIC] [TIFF OMITTED] 94003A.048
    
    [GRAPHIC] [TIFF OMITTED] 94003A.049
    
    The Chairman. Thank the gentlelady.
    Mr. Brady.
    Mr. Brady. Yes. Thank you, Mr. Chairman.
    I understand that you have 2,700 employees.
    Mr. James. We may be down a little under that now. I think 
we are under 2,500 employees, Mr. Brady.
    Mr. Brady. Roughly, how many are bargaining, nonbargaining?
    Mr. James. Roughly 50-50.
    Mr. Brady. And I am for buyouts and drop programs. I wish 
to have one around here. How does that work when you have 
buyouts? Is it longevity? Is it an age factor?
    Mr. James. When I came in the door, we took a look at the 
workforce composition, just so I could understand who worked 
for us, what were their skills, where did they come from, how 
long did they work for the GPO; and I was amazed to discover 
that most of the people at GPO, it was their first and only 
job. In many cases, their fathers and mothers had worked before 
us and, in some cases, their grandparents before that. So there 
is a great tradition of the craft of GPO and loyalty to the 
agency.
    But 52 percent of the folks that worked for us were age 
eligible for retirement, that means they reached the correct 
years of service and age. And it was necessary for us to 
substantially reduce our expenses--we have been losing about 
$35 million a year--and Congress seemed unwilling to continue 
to fund that, and my job was to figure out how to deal with it.
    So we figured the easiest thing would be to tell our 
employees what we are going to do, how we were going to 
modernize the GPO, and then give people an opportunity--and we 
offered the opportunity to 300 people--to retire now. They were 
age eligible to retire, and we offered a $25,000 incentive to 
do it.
    We had 600 people that applied. We accepted a little over 
300 of those; and then decided, well, if there are that many 
people that are interested, perhaps we ought to go back and do 
a second round of this. And we went back and did a second round 
and a few--over 200, I think by the time we finished the 
program, it will be close to 250--elected to do that.
    There are a couple of reasons that I see that people have 
elected to do it. One is, they feel they are entitled to 
retire. They spent a life working for the GPO and they would 
just like to enter retirement. The second is that some people 
just don't want to go through the struggles of having to learn 
a new job or learn a new way of doing things. I think this 
gives them an opportunity to opt out. So what we have left, as 
I see it, is a whole bunch of people that are very anxious to 
get on with the future.
    Mr. Brady. Well, those people that apply for this, is that 
still around 50-50, bargaining to nonbargaining? Was it offered 
to both?
    Mr. James. We had it open to both. And I would be happy to 
supply that information for the record. I don't know it.
    Mr. Brady. My concern is--and you can probably see where I 
am going, and I am just worrying about an organization that is 
fundamentally sound with bargaining unit people and then all of 
a sudden, they are the ones that usually get hurt. They are the 
smaller end, and you wind up putting--hiring management people 
with senior positions or whatever you want to call them, and 
replacing them with, you know, taking out the small bargaining 
unit people.
    And I am not against that either. I really believe, 
especially in your case, when you come on board for a new 
agency, you should be able to run that agency the way you see 
fit or else we are going to blame you or praise you. But I 
don't want to see the smaller guy get hurt; I would like to see 
a protection factor.
    And, again, like I said, hiring other people or whatever 
senior positions is fine as long as we don't hurt the core 
people that have been there and offer them in-house or out-of-
house, whatever training they need to do their job. It is real 
easy to say you can't do this, we have to have a reduction in 
force and hire who you want to hire in a nonbargaining capacity 
and let them do their job also. We need to protect those 
people.
    I don't want to see top heaviness. I want to see you work 
with our unions and make sure that doesn't happen and continue 
to have a happy family there.
    The Chairman. I want to thank the panel. I also want to 
mention something.
    I happen to know that the Inspector General and Printer 
were stuck out in traffic, got out, and kind of semi-jogged 
over here. So that is pretty good.
    Also I wanted to mention, I recognize two staff, Mike 
Harrison--Mike has worked on these issues with Congressman 
Larson, and Maria Robinson. And this is Maria's last hearing 
with us; she is from Belmont County where I am from; she is 
truly a coal miner's daughter. She is a coal miner's daughter; 
her father is a coal miner. And Maria is going on to great 
things. We are going to miss her.
    She started, her first 2 months out of high school, with us 
in the Ohio senate and worked her way up and became an LD out 
here and then a policy person. So this is Maria Robinson's last 
official day with us. Just wanted to note that--half a day.
    Mr. Larson. I just wanted to ask one more follow-up 
question on this, and again--and to all three of the panelists, 
but specifically directed to Mr. James.
    In your opening statement, you talked about what you are 
intending to do to help close that revenue gap as we move 
forward. The DOD is, number one, your largest customer, but 
also sometimes problematic in not, shall we say, necessarily 
going through the GPO.
    What are your ideas on improving that? And if all three of 
you can answer that, what are some of the things you think we 
can do, and whether legislation is needed in any of those 
areas.
    Mr. James. It is a very good question. I certainly spent my 
first year in determining how we could best cut expenses. As 
you know, we have to put points on the scoreboard to win the 
game.
    We are now in a position to be able to focus on increasing 
revenues. And almost all of my time is now spent on how are we 
going to replace the revenues we have lost, how we can expand 
future revenues; and I think that you ought to give us a 
chance. I mean, I think this does not require a sledgehammer. I 
think this requires just operating our unit, our business, if 
you will, in a professional way. I think we can get the job 
done, and I say that based on my experiences in talking with 
employees throughout Government. I thinkthat, by and large, 
people want to cooperate if they understand.
    Mr. Larson. How long a time frame would you say that was?
    Mr. James. We will see results in the next fiscal year, 
2005. We will see results from this. Within 3 years, we should 
be doing what we need to be doing.
    Mr. Larson. Ms. Koontz.
    Ms. Koontz. First of all, GPO, as it intends to do, needs 
to look at its mission and what it is doing and to make sure 
that what it is doing fits currently what customer needs are 
and what the needs of the public are. So that is sort of first 
and foremost.
    There are opportunities, I think, for GPO that were 
indicated by our executive branch customer surveys that they 
are going to follow up on. For example, we found there were 
some agencies who were not aware of some of the emerging 
electronic services that GPO provides, and they were less 
likely to use those services. We pointed out that we thought 
that was an opportunity for perhaps GPO to grow its business in 
that way; and I think there are probably other opportunities 
like that as they reexamine what they are doing.
    They have to look at their expenses and to look at their 
people. And I think they are moving forward on all fronts in 
order to determine how to stem the losses that have occurred 
over the last years.
    Mr. Larson. And you wouldn't think legislation is needed 
either?
    Ms. Koontz. At this time, I wouldn't be able to make any 
recommendations in that area.
    Mr. Nichols. I would agree with what the Public Printer and 
Ms. Koontz have said and just reiterate that, from our vantage 
point, when there are problems dealing with customer agencies, 
it is to deal with the Inspector General at the Defense 
Department.
    I know that OMB has indicated a willingness to hear from 
us, as well, on any Title 44 problems. So we can use them as a 
resource as well.
    Mr. Larson. Thank you all very much.
    The Chairman. I want to thank you and I appreciate your 
testimony. We will call the second panel and will begin in 
about 3 minutes.
    [Recess.]
    The Chairman. I want to thank you. We will start with Panel 
2. Let me introduce the panel.
    First, we have Mr. Ben Cooper, who is the Executive Vice 
President of the Printing Industries of America; also, Mr. 
George Lord, Chairman of the Joint Council of Unions at the 
GPO; Mr. Bill Boarman, President of the Printing, Publishing 
and Media Workers section of the CWA; and finally, Janice 
Johnston, President of the American Association of Law 
Libraries.

   STATEMENTS OF BEN COOPER, PRINTING INDUSTRIES OF AMERICA; 
     GEORGE LORD, CHAIRMAN OF THE JOINT COUNCIL OF UNIONS, 
  GOVERNMENT PRINTING OFFICE; WILLIAM BOARMAN, COMMUNICATIONS 
WORKERS OF AMERICA; AND JANIS JOHNSTON, UNIVERSITY OF ILLINOIS 
                      AT CHAMPAIGN-URBANA

    The Chairman. Thank you and welcome to the panel, and we 
will begin with Mr. Cooper.

                    STATEMENT OF BEN COOPER

    Mr. Cooper. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you today, and I want to thank you 
for the work you have done in this committee, and the members 
of this committee. You have provided a great deal of 
leadership.
    And also want to pay special thanks to Bruce James, who 
came out of our industry. We certainly expected Bruce to be a 
leader in the Government Printing Office, and he has not 
disappointed us to that extent.
    And also want to acknowledge and appreciate being with Mr. 
Lord and Mr. Boarman today. We have been involved in Government 
Printing Office issues for more years than any of us would care 
to recollect. Bill and I go back to 1978; we were just 
reminiscing about that. It is fun to be with my friends and to 
appear before the committee.
    Contrary to published reports, print is not dead. The 
printing industry this year will exceed $155 billion in sales, 
and we are expecting a growth rate this year of upwards of 4 
percent.
    These are challenging times. There has been a tremendous 
growth in electronic communication; nevertheless, people still 
prefer to get their communication by print. And we find that--
as other forms of technology arise, we find that print still 
serves an enormous market in this country.
    In addition to the substantial role of print in the private 
sector, print is also a very big part of the public sector. I 
would like to point out that in the Federal budget, the print 
sector in 1996 was $1.75 billion. We are expecting $2.1 billion 
in print in the Federal budget in fiscal year 2004. So while 
GPO volume in print may be declining, the growth in print in 
the Federal Government has not declined and, in fact, is 
continuing to grow.
    Our objective, and I think the objective of most of the 
witnesses here, is to figure out ways to more effectively move 
that print volume into the GPO so the GPO can continue to 
provide that work more efficiently and more effectively.
    Why is print still relatively strong in the face of new 
technologies? It is simply because for many private sector and 
government communications, print is the most effective and 
reliable way to reach the end user. It is very interesting that 
the challenges we face in the private sector are not very 
different from the challenges faced by the Government Printing 
Office.
    Our industry has always managed information. Our output has 
historically been on paper and a good portion is still on 
paper. But modern printers are now creating, managing and 
distributing information in all formats for their clients. 
Also, printers are managing files, storing and distributing 
print information for their customers as well. For the GPO to 
remain viable, it will have to change to these kinds of 
technologies as well; and from what we have heard from the 
Public Printer today and watching his actions over the last 16 
months, we are confident he is moving rapidly in that 
direction.
    There are some changes needed, however, and we have been 
talking to GPO about these changes, as well as with people from 
the Office of Management and Budget and a number of folks on 
Capitol Hill.
    Over time, we have had three fundamental issues that 
havebeen consistent in all of our testimonies and all of our efforts to 
reform government printing. Those three issues are that Federal 
agencies other than the Government Printing Office should not be in the 
printing business other than providing routine office copying.
    Secondly, the GPO must modernize the way it buys printing 
for its agency customers to conform to the rules used 
throughout the rest of the Federal Government and by GPO to 
make some of its own purchases.
    And third, the Federal Government should implement a 
planning process which determines printing and information 
needs for the coming fiscal year.
    We had hoped that many of these issues would have been 
resolved in 2003 by what became known as the OMB-GPO Compact. 
Regrettably, despite apparent universal agreement on the need 
for these changes, little progress is being made in these 
areas. While all three are important, I want to focus today on 
the planning process and the need to modernize GPO procurement 
regulations.
    The planning process that we have proposed for some time 
has been to simply require agencies or subagencies to develop, 
in conjunction with their budget submission, a plan for the 
coming year and their printing and information needs. An 
officer in that agency could be designated for this purpose. 
Agencies are required to have a chief information officer; 
whether that person is appropriate or not, I would leave that 
to the judgment of Congress and the Federal agencies.
    But it would seem to us that if an agency had to lay out 
its plan for printing and information and communication to the 
Congress as part of its budget planning process, then the GPO 
would better be able to understand what it needed, how to use 
its people more effectively. We would also be able, in that 
process, to have the agencies identify what its printing 
capacities are and what its needs are so that, in looking at 
the larger picture, we might be able to more effectively plan 
the process.
    We know that this is somewhat of an undertaking for Federal 
agencies, but one presumes there is some planning process that 
is already in place and that printing and information is not 
whimsically decided at the last minute.
    The next area of concern that I want to address is the 
reform of procurement. GPO's Federal agency customers have the 
same need for flexibility in selecting solutions in print and 
related services as our private sector customers. Given the 
technology changes, all customers need to hear new ideas to 
take advantage of new technologies, methodologies and 
solutions. Unfortunately, under current GPO regulations, if a 
printing company proposes an exciting new alternative, even 
when it reduces overall costs, its bid can be declared 
nonresponsive and rejected.
    In this new environment, GPO's classic ``low price wins'' 
methodology and rigid procurement methods are simply too 
restrictive. Purchases of all other products and services 
throughout the Federal Government can be made using a variety 
of purchasing methods under the Federal acquisition 
regulations. This flexibility allows the contracting officer 
and his customers to structure a procurement based on the 
complexity of the project and the needs of the government while 
still obtaining competition. It not only allows, but also 
encourages, creative, cost-saving solutions.
    Ironically, when GPO buys products and services for itself, 
it uses a materials management acquisition regulation which 
mirrors the Federal acquisition regulation and provides it with 
a variety of purchasing options, including the option to 
consider not only price, but quality, experience, delivery 
service, et cetera, when awarding contracts. But none of these 
modern purchasing methods is applied to print and related 
purchases GPO makes for its agency customers.
    I should note that some believe that the electronic 
procurement system being developed under the OMB-GPO Compact 
will solve this problem. That is not the case for three 
reasons:
    First, whether procurement is done on paper or on the Web, 
the system will continue to decline if the underlying 
procurement regulations are not brought in line with the rest 
of the government and best practices.
    Second, based on agency decisions since the Compact, most 
print purchases will not go through the new GPO Direct program 
because agency print procurement departments do not have the 
contracting authority to use that future GPO buying vehicle.
    Finally, GPO Direct has a $100,000 limit, so the larger, 
critical jobs will still go through the traditional GPO 
procurement system. The solution is for GPO to adopt the 
current MMAR regulations as the procurement regulations 
applicable to purchases for its agency customers, not next 
year, but next month.
    I would like to talk about simplified purchase agreements. 
In the summer of 2000, GPO launched a new simplified purchase 
agreement contract vehicle. Under these agreements, GPO sets up 
a blanket purchasing agreement with multiple vendors whose 
quality, service and pricing meet government requirements and 
allow Federal agency buyers to purchase printing directly from 
the approved vendors. This saves the agency time and 
administrative costs and allows them to have direct contact 
with a vendor. At the same time, GPO provides its contracting 
authority in full support of the agency buyer when needed.
    This is in contrast to the OMB-GPO Compact electronic model 
where agency contracting authority is used and GPO charges 
extra for support services. Under this program, agencies can 
make the purchase decision based on price and other factors. 
Other factors include responsiveness, business practices, 
convenience, courtesy, attention to detail and elements of past 
performance, including work quality, reliability and schedule 
compliance. This flexibility is in contrast to GPO's 
traditional ``low cost wins'' methodology.
    This program offers agencies a flexible, full-service, 
alternative option to the Compact electronic purchasing model 
that is fully compliant with the goals of the Compact. It is 
very popular with agencies and vendors. It has spread from GPO 
central office in Washington to regional offices throughout the 
country. The only complaint about the program has been, the 
$2,500 purchase limit was too low.
    In June, 2003, after talking to agency customers and 
printers, PI requested that GPO increase the purchase limit to 
at least $10,000. In support of that request, we surveyed 150 
agency print buyers and managers in August, 2003. Nine out of 
10 respondents wanted the limit increased. Over half wanted the 
limit at $10,000 or more. We have included a copy of that 
survey for your information.
    Based on the survey and their own analysis, GPO management 
agreed to raise the limit to at least $10,000, butthe limit 
today remains at $2,500. We now believe that the limit should be 
increased to $25,000.
    Mr. Chairman, that concludes my testimony. And I would like 
to say just in conclusion, the printing industry is changing 
dramatically. One of the primary ways it is changing is in the 
growth of what we call ancillary services.
    One of the fastest growing areas of ancillary services is 
in distribution and fulfillment. Many of our print--many of the 
members of our organization would enjoy talking to agency 
customers about providing that level of service. We want to do 
this under the context of GPO procurement authority. We firmly 
believe that if we will address this agency plan issue, be more 
flexible in contracting, that the net result will be to bring a 
significant amount of business back into the GPO and provide 
work not only for the folks represented by the gentleman 
sitting next to me, but serve the taxpayers well.
    Thank you very much.
    The Chairman. Thank you.
    [The statement of Mr. Cooper follows:]
    [GRAPHIC] [TIFF OMITTED] 94003.001
    
    [GRAPHIC] [TIFF OMITTED] 94003.002
    
    [GRAPHIC] [TIFF OMITTED] 94003.003
    
    [GRAPHIC] [TIFF OMITTED] 94003.004
    
    The Chairman. Mr. Lord.

                    STATEMENT OF GEORGE LORD

    Mr. Lord. Good morning, Mr. Chairman and to all members of 
the committee. I want to say how honored I am to appear before 
this committee to share with you the hopes and dreams and fears 
of the men and women whom I represent, that are employed at the 
U.S. Government Printing Office.
    We have served the Congress, the executive and judicial 
branches for well over 100 years. During that time, the 
employees have served and served well. We have fulfilled our 
mission year after year, no matter what, with honor and 
distinction. We take enormous pride in those accomplishments.
    These employees that I have represented have a high sense 
of duty and they have willingly met every challenge, whether 
the challenge was technological or financial. We have mastered 
the technology. We have made changes that saved the GPO and the 
American taxpayer huge amounts of money when warranted and 
legitimately needed. This history is why I am before you today. 
These employees over the years have given their sweat and labor 
for the survival of this fine institution.
    We believe some of GPO's financial resources have been 
wasted, thereby reversing those sacrifices I have mentioned. 
Some of the wasteful spending items we consider are huge 
expansion of GPO's overhead costs because of the creation of 
additional executive positions; increased expenditures for 
offices for those executives; and the wholesale reduction of 
employees that have chargeable hours, thereby reducing the 
revenue; finally, increased travel expenses for those 
executives and support staff.
    We believe the Public Printer needs to be more committed to 
the GPO mission and not squander scarce Federal dollars that 
should be used to plan for, enter into the new electronic age, 
including the impact of the new technology on ink-on-paper 
printing, which is still, even today, our greatest source of 
revenue.
    Earlier. In testimony, there were questions fielded about 
the human capital office and the programs. While we are still 
waiting for the skills assessment and the skills needs to be 
done, GPO has placed people into key positions, and has changed 
our job series, which is a job classification standard which 
allows people to compete for the job that I have been doing for 
25, 30 years. We believe that is wrong and we believe that it 
needs to be resolved because, by the time these programs and 
evaluations are in place, jobs, critical jobs, jobs for 
growth--and everybody wants to grow for any employer that they 
devote their career to--will be filled and they will be left 
with a lower paid job and a lower skill.
    We also mentioned about the new technology. As I said in my 
written statement, GPO employees have had a fine record and 
tradition of being retrained for whatever the technology is. I 
say to you today that if you survey the current employees in IT 
occupations within the Government Printing Office, you will 
find probably at least half, if not more, of those employees 
working in IT fields today came out of the craft areas of 
yesterday. So GPO put forth a challenge the employees have met 
every time.
    We also have a concern because of the shifting of ink-on-
paper to electronics that GPO gets its resources still, to this 
day, by the printed product. As we are doing the typesetting 
and the coding for the Congressional Record and we complete and 
create that digital file, it is nothing to take that file and 
put it out on the Web. So the revenue that is generated are--
the hours that our people work on that are charged back to the 
revolving fund.
    In conclusion, I don't want to leave you with the 
overwhelming impression that Mr. James and organized labor is 
not getting along or are battling over the various items, 
because on a lot of issues we are, in fact, in agreement. This 
is, however, a concern that the employees have been 
communicating to me over the last 14 months, and I appreciate 
the time and the opportunity to express them to you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Mr. Lord follows:]
    [GRAPHIC] [TIFF OMITTED] 94003.005
    
    [GRAPHIC] [TIFF OMITTED] 94003.006
    
    [GRAPHIC] [TIFF OMITTED] 94003.007
    
    [GRAPHIC] [TIFF OMITTED] 94003.008
    
    The Chairman. Mr. Boarman.

                  STATEMENT OF WILLIAM BOARMAN

    Mr. Boarman. Thank you, Mr. Chairman and good morning. And 
good morning to members of the committee. Thank you for holding 
this hearing and thanks for the invitation to my organization 
to appear and to give our views.
    My name is Bill Boarman and I am Vice President of the 
Communication Workers of America, over 730,000 members, 
including a broad spectrum of workers in the communications 
industry and the printing and publishing industry as well.
    Our union's history within the Government Printing Office 
reaches as far back as the Civil War. That history provides us 
with an intimate insight into GPO's operations and its 
evolution. My own experience with GPO goes back 30 years, first 
as an employee, later as a local union representative, and 
today, as a national Vice President of the CWA. I think over 
this period, I have testified at least a dozen times before 
either the Joint Committee on Printing, the Senate Rules 
Committee, House Administration and various committees on the 
appropriations side. And I also, as Ben Cooper has mentioned, 
served on an ad hoc committee back in the late 1970s along with 
a member of your staff, Charlie Howell--I think we are the 
three survivors--where we were appointed by Congress to look at 
major changes and overhaul to GPO.
    It is notable that, through the years, GPO's talented 
personnel continue to meet their grueling daily deadlines in 
producing the Congressional Record, the Federal Register and 
thousands of other complex and significant documents and 
records of our government's work. The most important role that 
GPO plays is in the maintenance of our Nation's commitment to 
participatory democracy and accountability by the government. 
That is GPO's fundamental mission, to ensure universal citizen 
access to the products of their Federal Government.
    By collecting and distributing government research and 
reports through its network of 1,300 libraries, GPO serves a 
unique role for the Nation. Perhaps because GPO has been so 
effective at this function, the average citizen may not be 
aware of just how important it is.
    Some 20 years ago, GPO began a profound transition from a 
traditional ink-on-paper operation into a state-of-the-art 
information entity. That transition presaged changes that many 
other major publishers have followed, first in digital 
composition and pagination and currently in the masterful use 
of the Internet to enhance information flows throughout the 
Nation and the world.
    When I worked in the GPO, I might note there were 8,000 
employees. And today, there are probably less than 2,500. And 
that has been done because of technology that allows us to do a 
lot more than we could before with a lot less people, and it 
has been done basically through attrition. And unfortunately, 
there has been some work loss because some Federal agencies are 
seeking other places to have their work done.
    GPO's leadership and achievement have been widely 
recognized with a prestigious number of awards and honors. 
Today, however, we are concerned about a different problem for 
this venerable agency, an issue of management philosophy that 
we believe could lead to a serious divergence unless it is 
addressed analytically.
    Our unique perspective with experience in the information 
industry both in the private and public sector--as you know, 
CWA represents people who work for General Electric, Verizon, 
ABC and Disney, just to name a few of our large employers that 
employ CWA members--that unique perspective tells me that any 
information enterprise depends upon the productive capacity of 
the organization, not the number of highly paid executives it 
has on its plan to analyze. We are frankly concerned that the 
GPO is heading in another direction along the lines of an 
organizational structure that is top heavy with management 
officials whose costs cannot be absorbed and whose presence may 
not add to the productive capacity of the agency.
    As those costs grow, we are fearful that GPO will not be 
able to maintain its efficiency. This could and may result in 
cuts to the workforce and/or pay and benefits.
    As the members of the committee know, GPO by law must 
recover all of its costs. Historically, GPO has operated on a 
traditional pyramid structure, a strong, broad foundation of 
productive personnel at the primary level holding up the 
strong, lean management layer dealing with the administration. 
We have noticed that there appears to be a new layering of 
management positions with highly paid executive salaries, 
virtually inverting the pyramid. That change, we believe, 
imperils GPO's capacity because it results in a reapportionment 
of the agency's resources away from productive capacity.
    Given GPO's costs and accounting structure, any diversion 
of resources away from productive and billable positions could 
force the agency to choose between investment and additional 
productive capacity or growing executive salaries.
    We encourage this committee and other committees in the 
House and Senate with jurisdiction over GPO operations to 
remain vigilant. Sustaining this national treasure and 
preserving its vital function won't earn you headlines and 
sound bites on the 6 o'clock news.
    I can assure you as a parent, citizen and elected leader of 
an organization which seeks to advance the economic well-being 
of working families, a fully functional Government Printing 
Office enriches our Nation's wisdom and awareness in ways that 
are immeasurable on a balance sheet. Your oversight is critical 
in making certain that GPO is never forced to retrench or cut 
corners, compromise quality and efficiency or lose productive 
personnel in order to maintain a management layer.
    Mr. Chairman, thank you again for the opportunity for CWA 
to give its views on these issues. And I would be happy to 
answer any questions that you or members of the committee may 
have.
    The Chairman. Thank you.
    [The statement of Mr. Boarman follows:]
    [GRAPHIC] [TIFF OMITTED] 94003.009
    
    [GRAPHIC] [TIFF OMITTED] 94003.010
    
    [GRAPHIC] [TIFF OMITTED] 94003.011
    
    [GRAPHIC] [TIFF OMITTED] 94003.012
    
    The Chairman. Ms. Johnston.

                  STATEMENT OF JANIS JOHNSTON

    Ms. Johnston. Good morning. I am Janis Johnston, Director 
of the Law Library and Associate Professor of Law at the Albert 
E. Jenner, Jr., Memorial Law Library, University of Illinois at 
Urbana-Champaign. I am President of the American Association of 
Law Libraries.
    I am very pleased to appear before you this morning on 
behalf of the American Association of Law Libraries, the 
American Library Association, the Association of Research 
Libraries, the Medical Library Association and the Special 
Libraries Association. Together, we represent more than 90,000 
librarians, as well as the more than 1,200 libraries that 
participate in the Federal Depository Library Program.
    We commend you, Chairman Ney and Ranking Member Larson, for 
holding this important oversight hearing on the Government 
Printing Office. Our communities have a very strong interest in 
Federal information policy, a fervent commitment to public 
access to government information and a Federal robust library 
program for the 21st century. I ask that you please include my 
long statement in the record of today's hearing.
    The Chairman. Without objection.
    Ms. Johnston. I would like to summarize a few key points 
from that statement.
    First, we commend Public Printer Bruce James for bringing 
energy and enthusiam to the GPO as he works with Congress and 
all stakeholders to make its operations more efficient and to 
strenthen the FDLP. During his first year as Public Printer, 
Mr. James has accomplished several important initiatives to 
improve the public's access to government information.
    Last June, he and then-OMB Director Mitch Daniels announced 
an historic compact for government printing that allows 
agencies flexibility to select their own printers through the 
GPO procurement system. Printers will not be paid until they 
provide GPO with one electronic version of each document 
ordered and two print copies, thus ensuring improved public 
access to agency publications.
    We applaud Mr. James for his many successful outreach 
efforts, including the equally important MOU signed last August 
with the National Archives and Records Administration.
    Second, we believe strongly that the FDLP and depository 
libraries will continue to be crucial access and service points 
for the public in the 21st century, and we are committed to our 
role in this important partnership with Congress.
    The FDLP is a very successful partnership not just between 
GPO and participating libraries, but also with Congress, 
Federal agencies, the courts and the American public. 
Librarians know firsthand on a daily basis the importance and 
impact that access to government information has on the health 
and lives of all Americans, our Nation's economy and on public 
participation in government.
    The more than 1,200 Federal depository libraries come in 
all shapes and sizes--public, academic, law, special, Federal 
agency, research and medical libraries. Depository libraries 
spend millions of dollars annually for staff, space and, 
increasingly, for the technological infrastructure, the 
hardware, software, training, expertise and other services 
necessary to effectively connect users to electronic resources. 
In addition, we purchase costly commercial indexes, software 
and access to networks to make government publications more 
accessible to your constituents.
    Some depository libraries are dropping out of the FDLP for 
a number of different reasons. GPO has decreased significantly 
the number of print titles distributed to programs over the 
past several years, mostly as a result of the increased amount 
of born-digital information.
    We are pleased that GPO has begun to recognize that 
different types of libraries have different needs and different 
users. We believe GPO should strive to provide documents to 
depository libraries in the most suitable format to meet their 
users' needs.
    For example, the users of legal government information 
often require access to authenticated legal materials. 
Important legal titles available electronically through the 
Internet, whether through GPO access or on agency, 
congressional or Web sites are not authenticated. Note the 
following disclaimer for the electronic version of the U.S. 
Supreme Court slip opinions on the Court's own Web site, quote:
    ``these electronic opinions may contain computer-generated 
errors or other deviations from the official printed slip 
opinion pamphlets,'' end of quote.
    Last year I was very pleased that GPO responded to a 
request from the AALL executive board to reinstate print 
distribution of the slip opinions to law and regional 
depository libraries. AALL has also proposed an expanded list 
of essential titles for law libraries that would ensure that 
core legal titles would be distributed to law libraries in 
authenticated print versions.
    Today, only the largest of the Nation's map libraries have 
the ability to provide full-sized colored copies of maps 
delivered on line. There are technological issues with maps as 
well. Frequently on-line maps are not accessible in a way that 
allows downloading and copying of the full image. Therefore, 
many libraries need paper copies of maps to meet their users' 
needs.
    Congress should be concerned that the move to an all-
electronic Federal Depository Library Program may fail to meet 
the needs of those who live in rural or minority communities 
where there is little technological infrastructure and 
libraries may lack adequate high-speed Internet access.
    Third, the Federal Government must ensure the authenticity 
and permanent public access to and preservation of electronic 
government information. As we move into an even more electronic 
environment, we urge Congress to work to ensure that electronic 
government information products that have important historical 
value do not disappear, that they are preserved for permanent 
public access.
    In my long statement, I describe at some length the 
problems we have found trying to access information from 
government CD roms that have been distributed to depository 
libraries since 1988. The problem is that many early CDs and 
some continuing CD series use proprietary software and 
proprietary formats or both and are no longer usable at all. In 
addition, vast quantities of born-digital documents appear and 
disappear from government Web sites without notice or without 
any trace. It is alarming that a recent Mellon study found that 
the average duration----
    The Chairman. I hate to interrupt, but your time has 
expired. That is a call for votes, so you have to 
basicallyconclude if you could.
    Ms. Johnston. I am almost there.
    The Mellon study found that the average report on a 
government Web site is only available for 4 months.
    We know process is in place government-wide to ensure the 
entire life cycle of electronic government information and 
permanent public access and preservation.
    Chairman Ney and Ranking Member Larson, the library 
community is committed to working with you and GPO as they 
develop a strategic plan for the 21st century. We are committed 
to our partnership with you.
    Thank you very much for inviting me to participate in this 
important hearing. I am pleased to answer any questions you 
might have.
    The Chairman. Questions?
    Mr. Larson. Thank you, Mr. Chairman. Given the shortness of 
time--I have several questions, so I would like, with the 
permission of the Chair, to produce written questions for the 
panelists because time may not allow you to answer them 
thoroughly.
    But I would just like a general response, if you can, 
especially from the panelists representing labor and also from 
Mr. Cooper.
    First, Mr. Cooper, you argue that the government should 
generally engage in more formal planning process with respect 
to printing needs. You say there is resistance to such an idea. 
From whom and why?
    Mr. Cooper. I wouldn't call this overt resistance, but it 
is one of those issues we have proposed over many years. The 
difficulty is like, with closing Federal agency printing 
plants, there is no one place to go to get this done, whether 
it is through an Appropriations Committee process, or we 
discussed it with OMB. It is hard to get the one place, to get 
the one answer, to move ahead with it.
    Mr. Larson. Mr. Lord and Mr. Boarman, both of you commented 
at length about your concerns with regard to labor and your 
relationship with GPO, noting as well that it is not all a bad 
picture, but you are raising very salient points with respect 
to this.
    What is the biggest single thing that the Public Printer 
could do to make labor feel he considers them a partner in this 
transformation process now under way at the GPO?
    Mr. Lord. Well, above all, foremost, better communication, 
which is always the case in most situations.
    But also if--many Public Printers that I have served under 
have always advocated partnership with labor. But what my 
experience has showed me, what they mean by ``partnership'' is, 
I am going to make the decision and then I will get you 
together and inform you what that is. That is not our idea of 
partnership.
    I believe that a lot of the problem of the current 
administration, however, is timing more than it is--they need a 
deeper understanding that where GPO is today didn't just 
happen, that there was a lot of transition, a lot of sacrifices 
made; and employees just don't want to see the clock turned 
back by having to face another financial crisis, because what 
we see is huge amounts of spending for things that we don't 
believe are warranted or needed. And that is their biggest 
fear.
    I mean, we see some things that money is being spent on 
that we don't believe should be a top priority, especially at 
the same time you are talking about retraining huge amounts of 
people. We don't see the money is going to be there when it 
comes to our time to retrain at this rate of spending.
    We all see what has happened to the volume of work. But 
even if the Congress gave us a billion dollars to put in a 
revolving fund for any fiscal year, we can't get to it if we 
don't have chargeable hours. And overhead does not generate 
chargeable hours; it is just the opposite.
    And then the wholesale reductions that we see through the 
two buyouts that we have had, the overwhelming majority of 
those employees who seized the opportunity to go out are 
bargaining-unit jobs, are revenue-generating jobs, and 
therefore, are further compounding the costs of running the 
printing office. And we just don't see, if that continues, that 
the money is going to be there to do all this lavish retraining 
that Mr. James talked about. That is our biggest fear.
    Mr. Larson. I will defer to my other colleagues and just 
say that I am very concerned about the issues raised by the 
AALL.
    The Chairman. Mr. Brady.
    Mr. Brady. I know we have a vote on, and I will be brief.
    I want to restate something that was in the testimony of 
Mr. Boarman, that our oversight is critical to make certain 
that the GPO is never forced to retrench, cut corners, 
compromise quality and efficiency or lose productive personnel 
in order to maintain a management level layer that adds nothing 
to its output. And I promise you, I will be as diligent as I 
can be to try to make that not happen.
    The Chairman. We have a vote. There are questions that I 
wanted to ask, but I will submit them in writing and then we 
can converse back and forth.
    With that, I want to thank all of our witnesses and both 
panels for very good testimony. I know you have worked hard to 
prepare for the hearing today.
    I also want to thank our ranking member, Congressman 
Larson, Mr. Brady and their staff members who prepared for 
this.
    I ask unanimous consent that witnesses and members have 7 
legislative days to submit material into the record and for 
those statements and materials to be entered in the appropriate 
place within the record. Without objection, the material will 
be so entered.
    I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee at today's hearing. And without objection, so 
ordered.
    And that completes our business for today. The hearing is 
adjourned.
    [Whereupon, at 12 Noon, the committee was adjourned.]

                                  <all>

</pre></body></html>
